                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-01973-288




    Combined Assessment Program 

            Review of the 

     Fargo VA Health Care System 

         Fargo, North Dakota 





August 26, 2013

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                              CAP Review of the Fargo VA Health Care System, Fargo, ND



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Fargo VA Health Care System
                 FPPE           Focused Professional Practice Evaluation
                 FY             fiscal year
                 HPC            hospice and palliative care
                 ICC            Infection Control Committee
                 LIP            licensed independent practitioner
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                                       CAP Review of the Fargo VA Health Care System, Fargo, ND



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishment........................................................................................                    2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     5

  Medication Management – CS Inspections .............................................................                             7

  Coordination of Care – HPC ...................................................................................                  10

  Pressure Ulcer Prevention and Management .........................................................                              11

  Nurse Staffing .........................................................................................................        13

  Construction Safety.................................................................................................            14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 17

  C. VISN Director Comments ..................................................................................                    18

  D. Acting Facility Director Comments ....................................................................                       19

  E. OIG Contact and Staff Acknowledgments .........................................................                              27

  F. Report Distribution .............................................................................................            28

  G. Endnotes ...........................................................................................................         29





VA OIG Office of Healthcare Inspections
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 10, 2013.

Review Results: The review covered seven activities.                            We    made     no
recommendations in the following three activities:

   Environment of Care

   Coordination of Care – Hospice and Palliative Care

   Nurse Staffing

The facility’s reported accomplishment was a health video mailing system of 16 different
commercially produced videos that have reinforced interventions for improved care for
rural veterans.

Recommendations: We made recommendations in the following four activities:
Quality Management: Consistently initiate Focused Professional Practice Evaluations
for newly hired licensed independent practitioners. Consistently scan the results of
non-VA purchased care during which diagnostic tests are performed into electronic
health records.

Medication Management – Controlled Substances Inspections: Develop instructions for
inspections of automated dispensing machines. Require all inspectors to complete the
Controlled Substance Drug-Diversion Inspection Certification prior to beginning
inspections and annually. Ensure all inspectors receive annual updates and refresher
training. Conduct monthly inspections of all pharmacy and non-pharmacy areas with
controlled substances in accordance with Veterans Health Administration requirements.
Document inspector competencies. Ensure inspectors date and initial inspection
documents at the time of inspection.

Pressure Ulcer Prevention and Management: Perform and document a patient skin
inspection and risk scale at discharge. Accurately document location, stage, risk scale
score, and the date the pressure ulcer was acquired for all patients with pressure ulcers.
Ensure all patients discharged with pressure ulcers have wound care follow-up plans.

Construction Safety: Include time of inspections, type of corrective action for identified
deficiencies, and date and time of corrective actions in documentation of construction
site inspections. Ensure infection surveillance activities related to construction projects
are conducted and documented in Infection Control Committee minutes.




VA OIG Office of Healthcare Inspections                                                          i
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


Comments
The Veterans Integrated Service Network Director and Acting Facility Director agreed
with the Combined Assessment Program Review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 18–26, for
the full text of the Directors’ comments.) We will follow up on the planned actions until
they are completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                          ii
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
June 13, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.    We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Fargo VA Medical Center, Fargo, North Dakota, Report
No. 09-03745-250, September 20, 2010).




VA OIG Office of Healthcare Inspections                                                         1
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


During this review, we presented crime awareness briefings for 170 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
316 responded. We shared summarized results with the facility Director.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                          Reported Accomplishment 

Health Video Mailing System
The Vet Flix health video mailing system uses commercially produced videos of
16 topics to reinforce interventions for rural veterans. The videos explain diet, exercise,
and other information and provide one more tool for improved veteran care.
As of June 17, 2013, 81 videos had been mailed. Of those returned, 84 percent were
accompanied by comment cards, all of which were positive.




VA OIG Office of Healthcare Inspections                                                         2
                                                 CAP Review of the Fargo VA Health Care System, Fargo, ND



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                       Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
 X     FPPEs for newly hired LIPs complied with          Eleven profiles reviewed:
       selected requirements.                             Four FPPEs were not initiated.
       Local policy for the use of observation beds
       complied with selected requirements.
       Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.




VA OIG Office of Healthcare Inspections                                                                3
                                                   CAP Review of the Fargo VA Health Care System, Fargo, ND


 NC            Areas Reviewed (continued)                                   Findings
       Appropriate quality control processes were in     Twenty-four EHRs of patients who had non-VA
       place for non-VA care documents, and the          purchased diagnostic tests reviewed:
       documents were scanned into EHRs.                  Five episodes of care were not scanned into
                                                           the EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were
       transmitted to the data center with the
       required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that processes be strengthened to ensure that FPPEs for newly hired
LIPs are consistently initiated.

2. We recommended that processes be strengthened to ensure that the results of non-VA
purchased care during which diagnostic tests are performed are consistently scanned into
EHRs.




VA OIG Office of Healthcare Inspections                                                                  4
                                                 CAP Review of the Fargo VA Health Care System, Fargo, ND


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected inpatient mental health, the general medical/surgery unit, the intensive care unit,
the emergency department, the CLC, outpatient ambulatory care, radiology, hemodialysis, and
SPS. Additionally, we reviewed relevant documents, conversed with key employees and
managers, and reviewed 26 employee training and competency files (6 hemodialysis,
10 operating room, and 10 SPS). The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NC            Areas Reviewed for General EOC                               Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
             Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.




VA OIG Office of Healthcare Inspections                                                                5
                                                   CAP Review of the Fargo VA Health Care System, Fargo, ND


 NC          Areas Reviewed for Hemodialysis                                 Findings
                          (continued)
       Employees received training on bloodborne
       pathogens.
       Employee hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
       Selected EOC/infection prevention/safety
       requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
       The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
       Employees received required RME training
       and competency assessment.
       Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
       RME standard operating procedures were
       consistent with manufacturers’ instructions,
       procedures were located where reprocessing
       occurs, and sterilization was performed as
       required.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                  6
                                                 CAP Review of the Fargo VA Health Care System, Fargo, ND


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of all CS Coordinators and 10 CS inspectors and inspection documentation from
10 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                       Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and
       any identified deficiencies were corrected.
 X     Instructions for inspecting automated             Instructions for inspecting automated
       dispensing machines were documented,               dispensing machines had not been
       included all required elements, and were           developed.
       followed.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
 X     CS inspectors were appointed in writing,         Appointments, certifications, and training
       completed required certification and training,   records reviewed:
       and were free from conflicts of interest.         Two CS inspectors did not complete the CS
                                                           Drug-Diversion Inspection Certification prior to
                                                           beginning CS inspections.
                                                         Five of the seven applicable CS inspectors
                                                           did not complete annual certification in
                                                           accordance with local requirements.
                                                         Six of the seven applicable CS inspectors did
                                                           not receive annual updates and refresher
                                                           training.
 X     Non-pharmacy areas with CS were inspected        Documentation of 10 CS areas inspected during
       in accordance with VHA requirements, and         the past 6 months reviewed:
       inspections included all required elements.       There was no evidence that 1 day’s
                                                           dispensing from the pharmacy was reconciled
                                                           to each automated unit.
                                                         There was no evidence that a hard copy order
                                                           for at least two randomly selected dispensing
                                                           activities was verified.




VA OIG Office of Healthcare Inspections                                                                   7
                                                   CAP Review of the Fargo VA Health Care System, Fargo, ND


 NC           Areas Reviewed (continued)                                      Findings
  X    Pharmacy CS inspections were conducted in         Documentation of pharmacy CS inspections
       accordance with VHA requirements and              during the past 6 months reviewed:
       included all required elements.                    Verification of the number of prescription pads
                                                           was not consistently included.
                                                          Seventy-two hour inventories of the main
                                                           vault were not consistently performed.
                                                          Physical counts of all pharmacy drugs were
                                                           not completed during the 1st month of the
                                                           quarter.
                                                          Inspectors did not verify hard copy
                                                           prescriptions for 10 percent of the schedule II
                                                           drugs dispensed in the outpatient pharmacy.
                                                          Inspectors did not consistently verify the audit
                                                           trail by comparing drugs held for destruction
                                                           with the Destruction File Holding Report.
                                                          Inspectors did not consistently verify that drug
                                                           destructions were completed at least
                                                           quarterly.
                                                          Audit trails for destruction of 10 randomly
                                                           selected drugs were not consistently verified.
 X     The facility complied with any additional         Facility CS inspection policy reviewed:
       elements required by local policy.                 The facility did not document inspector
                                                           competencies, and inspectors did not date
                                                           and initial inspection documents at the time of
                                                           inspection.

Recommendations

3. We recommended that the facility develop instructions for inspections of automated
dispensing machines and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that all CS inspectors
complete the CS Drug-Diversion Inspection Certification prior to beginning CS inspections and
annually and that all CS inspectors receive annual updates and refresher training and that
compliance be monitored.

5. We recommended that processes be strengthened to ensure that 1 day’s dispensing from
the pharmacy to each automated unit is consistently reconciled and that a hard copy order for at
least 2 randomly selected dispensing activities is verified and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that inspectors consistently
verify the number of prescription pads and that 72-hour inventories of the main vault are
consistently performed and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that physical counts of all
pharmacy drugs are completed during the 1st month of the quarter and that compliance be
monitored.



VA OIG Office of Healthcare Inspections                                                                   8
                                             CAP Review of the Fargo VA Health Care System, Fargo, ND


8. We recommended that processes be strengthened to ensure that inspectors verify hard
copy prescriptions for 10 percent of the schedule II drugs dispensed in the outpatient pharmacy
and that compliance be monitored.

9. We recommended that processes be strengthened to ensure that drugs held for destruction
are consistently compared with the Destruction File Holding Report, that inspectors consistently
verify drug destructions are completed at least quarterly, and that inspectors ensure audit trails
for destruction of 10 randomly selected drugs are consistently verified and that compliance be
monitored.

10. We recommended that processes be strengthened to ensure that inspector competencies
are documented and that inspectors date and initial inspection documents at the time of the
inspection and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                            9
                                                 CAP Review of the Fargo VA Health Care System, Fargo, ND


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 21 employee training records (6 HPC staff records and 15 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

 NC                     Areas Reviewed                                     Findings
       A PCCT was in place and had the dedicated
       staff required.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
       HPC staff and selected non-HPC staff had
       end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                               10
                                                CAP Review of the Fargo VA Health Care System, Fargo, ND


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 16 EHRs of patients with pressure ulcers (5 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
1 patient with multiple pressure ulcers at the time of our onsite visit), and 10 employee training
records. Additionally, we inspected one patient room. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC                     Areas Reviewed                                      Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
 X     Skin inspections and risk scales were             Four of the 15 applicable EHRs did not
       performed upon transfer, change in condition,      contain documentation that a skin inspection
       and discharge.                                     and risk scale were performed at discharge.
 X     Staff were generally consistent in                In 3 of the 16 EHRs, staff did not consistently
       documenting location, stage, risk scale score,     document the location, stage, risk scale
       and date acquired.                                 score, and/or the date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed    Two of eight applicable EHRs did not contain
       at discharge, a wound care follow-up plan was      evidence of wound care follow-up plans at
       documented, and the patient was provided           discharge.
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                 11
                                                 CAP Review of the Fargo VA Health Care System, Fargo, ND


 NC            Areas Reviewed (continued)                                  Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

11. We recommended that processes be strengthened to ensure that acute care staff perform
and document a patient skin inspection and risk scale at discharge and that compliance be
monitored.

12. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and the date the pressure ulcer was
acquired for all patients with pressure ulcers and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                               12
                                                 CAP Review of the Fargo VA Health Care System, Fargo, ND


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and mental health).6

We reviewed relevant documents and 33 training files, and we conversed with key employees.
Additionally, we reviewed the actual nursing hours per patient day for acute medical/surgical
unit 3M, the CLC unit, and mental health unit 4B for 52 randomly selected days (holidays,
weekdays, and weekend days) between October 1, 2012, and March 31, 2013. The table below
shows the areas reviewed for this topic. Any items that did not apply to this facility are marked
NA. The facility generally met requirements. We made no recommendations.

 NC                    Areas Reviewed                                      Findings
       The facility completed the required steps to
       develop a nurse staffing methodology by the
       deadline.
       The unit-based expert panels followed the
       required processes and included all required
       members.
       The facility expert panel followed the required
       processes and included all required members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                               13
                                                     CAP Review of the Fargo VA Health Care System, Fargo, ND


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We reviewed documentation for projects to correct electrical deficiencies and replace physical
access security systems. We did not conduct project site inspections as the work being done at
the time did not involve patient care areas. Additionally, we reviewed relevant documents and
20 training records (10 contractor records and 10 employee records), and we conversed with
key employees and managers. The table below shows the areas reviewed for this topic. The
areas marked as NC needed improvement. Any items that did not apply to this facility are
marked NA.

 NC                    Areas Reviewed                                          Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the              Site inspection documentation for 2 quarters
       required multidisciplinary team members at          reviewed:
       the specified frequency and included all             Documentation did not include time of
       required elements.                                     inspections, type of corrective action for
                                                              identified deficiencies, and date and time of
                                                              corrective actions.
 X     ICC minutes documented infection                    ICC minutes for past 2 quarters reviewed:
       surveillance activities associated with the          There was no documentation of infection
       project(s) and any interventions.                      surveillance activities related to any
                                                              construction project prior to the most recent
                                                              meeting.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
       Contractors and designated employees
       received required training.
 NA    Dust control requirements were met.



VA OIG Office of Healthcare Inspections                                                                       14
                                              CAP Review of the Fargo VA Health Care System, Fargo, ND


 NC            Areas Reviewed (continued)                               Findings
 NA    Fire and life safety requirements were met.
 NA    Hazardous chemicals requirements were met.
 NA    Storage and security requirements were met.
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendations

14. We recommended that processes be strengthened to ensure that documentation of
construction site inspections includes time of inspections, type of corrective action for identified
deficiencies, and date and time of corrective actions.

15. We recommended that processes be strengthened to ensure that infection surveillance
activities related to construction projects are conducted and documented in ICC minutes.




VA OIG Office of Healthcare Inspections                                                            15
                                                  CAP Review of the Fargo VA Health Care System, Fargo, ND
                                                                                               Appendix A


        Facility Profile (Fargo/437) FY 2013 through April 2013a
Type of Organization                                                             Secondary
Complexity Level                                                                 2-Medium complexity
Affiliated/Non-Affiliated                                                        Affiliated
Total Medical Care Budget in Millions                                            $174.2
Number (through May 2013) of:
    Unique Patients                                                             26,683
    Outpatient Visits                                                           167,403
    Unique Employeesb                                                           761
Type and Number of Operating Beds:
    Hospital                                                                    46
    CLC                                                                         38
    Mental Health                                                               10
Average Daily Census:
    Hospital                                                                    20
    CLC                                                                         29
    Mental Health                                                               5
Number of Community Based Outpatient Clinics                                     9
Location(s)/Station Number(s)                                                    Grafton/437GA
                                                                                 Bismarck/437GB
                                                                                 Fergus Falls/437GC
                                                                                 Minot/437GD
                                                                                 Bemidji/437GE
                                                                                 Williston/437GF
                                                                                 Jamestown/437GG
                                                                                 Dickinson/437GH
                                                                                 Grand Forks/437GI
VISN Number                                                                      23




a
    All data is for FY 2013 through April 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                16
                                               CAP Review of the Fargo VA Health Care System, Fargo, ND
                                                                                            Appendix B


                          VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1

                   Inpatient Scores                                 Outpatient Scores
                       FY 2012                                          FY 2012
                Inpatient       Inpatient       Outpatient       Outpatient       Outpatient       Outpatient
                Score           Score           Score            Score            Score            Score
                Quarters 1–2    Quarters 3–4    Quarter 1        Quarter 2        Quarter 3        Quarter 4
    Facility    67.0            71.5            55.3             59.3             58.3             62.1
    VISN        66.9            70.5            57.9             59.3             58.7             60.4
    VHA         63.9            65.0            55.0             54.7             54.3             55.0



                       Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                Mortality                                      Readmission
               Heart Attack    Heart            Pneumonia       Heart Attack     Heart            Pneumonia
                               Failure                                           Failure
    Facility   14.9            9.7              10.7            20.1             20.2             19.0
    U.S.
    National   15.5            11.6             12.0            19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                         17
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND
                                                                                       Appendix C
                               VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           July 31, 2013 


       From:           Director, VA Midwest Health Care Network (10N23)


       Subject:        CAP Review of the Fargo VA Health Care System, 

                       Fargo, ND

       To:             Director, Seattle Office of Healthcare Inspections (54SE)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       The purpose of this Memorandum is to submit the Director’s comments to
       Office of Inspector General’s Draft Report of CAP Review of the Fargo VA
       Health Care System, Fargo, ND.


             (original signed by:)
       JANET P. MURPHY, MBA
       Network Director, VISN 23

       Enclosure




VA OIG Office of Healthcare Inspections                                                        18
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND
                                                                                       Appendix D
                      Acting Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


       Date:           July 31, 2013

       From:           Acting Director, Fargo VA Health Care System (437/00)

       Subject:        CAP Review of the Fargo VA Health Care System,
                       Fargo, ND

       To:             Director, VA Midwest Health Care Network (10N23)

       1. The purpose of this Memorandum is to submit the Director’s comments
          to the Office of Inspector General’s Draft Report of CAP Review at the
          Fargo VA Health Care System, Fargo, ND.

       2. If you have any questions or would like to discuss this response,
          please contact me at 701-239-3701.




       DALE P. DEKREY, MS
       Acting Medical Center Director

       Enclosure




VA OIG Office of Healthcare Inspections                                                        19
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
FPPEs for newly hired LIPs are consistently initiated.

Concur

Target date for completion: November 1, 2013 (for continued monitoring)

Facility response:

The process for ensuring that FPPEs for newly hired LIPs is initiated was completed in
October, 2012 to include: (Records that were reviewed were from 2011)

   1. New LIP’s Credentialing and Privileging application and FPPE plan is forwarded
      to the Professional Stands Board (PSB) for initial review.
   2. On approval of the of the C&P and FPPE plan by the PSB, it is then forwarded to
      the Medical Executive Committee (MEC) for final approval and documented in
      the meeting minutes.
   3. The Medical Center Director approves for final appointment.
   4. Following the appointment a copy of the approved privileges and FPPE form are
      sent to the Service Line Chief for initiation.
   5. A diary of the approval is maintained in the Medical Staff Office.
   6. A 30 day follow-up is conducted with the Service Line Chief to assess completion
      of the FPPE.
   7. Final reports of the FPPE results are forwarded to the PSB.

Ongoing compliance is monitored by the Medical Staff Coordinator and reported to the
PSB and Medical Executive Council.

Recommendation 2. We recommended that processes be strengthened to ensure that
the results of non-VA purchased care during which diagnostic tests are performed are
consistently scanned into EHRs.

Concur

Target date for completion: January 15, 2014

Facility response:

The process to ensure that the results and scanning of those results into the EHR of
non-VA purchased care was reviewed. The process going forward will include:


VA OIG Office of Healthcare Inspections                                                        20
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


   1. Following the payment of a bill, the business office clerks will review each line
      item and request the results for each diagnostic test that may have been
      performed.
   2. The medical facility that completed the test(s) will be instructed to forward all
      results directly to the Medical Records Scanning department.
   3. The Business Office Manager	 will complete monthly audits to ensure the
      process is effective. The expectation will be to review 20% of the patients
      medical records that received non-VA purchased care with a minimum of
      90% compliance for 4 consecutive months.
   4. Reports will be presented at the monthly Compliance meeting.

Recommendation 3. We recommended that the facility develop instructions for
inspections of automated dispensing machines and that compliance be monitored.

Concur

Target date for completion: November 15, 2013

Facility response:

Instructions for inspection of automated dispensing machines have been developed and
have been added to the orientation packet. Education will be given to the current CSI’s
on the new instructions.

Recommendation 4. We recommended that processes be strengthened to ensure that
all CS inspectors complete the CS Drug-Diversion Inspection Certification prior to
beginning CS inspections and annually and that all CS inspectors receive annual
updates and refresher training and that compliance be monitored.

Concur

Target date for completion: January 16, 2014

Facility response:

All new Controlled Substance Inspectors (CSI) will complete the TMS training prior to
performing inspections. All CSI will complete the TMS training annually.

The Controlled Substance Coordinator (CSC) will keep a printed copy of each
inspector’s certification in personnel file.

The CSC will conduct an annual refresher training which will include any pertinent
updates.

The CSC will observe each inspector performing an inspection annually. A competency
checklist will be developed and completed annually with the expectation of 100%
compliance.



VA OIG Office of Healthcare Inspections                                                        21
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


Training progress and final results will be presented at the OPC meeting.

Recommendation 5. We recommended that processes be strengthened to ensure that
1 day’s dispensing from the pharmacy to each automated unit is consistently reconciled
and that a hard copy order for at least 2 randomly selected dispensing activities is
verified and that compliance be monitored.

Concur

Target date for completion: January 15, 2013

Facility response:

The CSC will provide training on current policy for verification of medications and
reconciling of the automatic dispensing units as well as, the required documentation.

The CSC will revise the Inspection checklist to include these elements including the
documentation requirements.

The Controlled Substance Coordinator (CSC) will monitor compliance, with the
expectation that 100% compliance for 4 consecutive months will be achieved. Report
will be presented monthly at the Organizational Performance Council (OPC).

Recommendation 6. We recommended that processes be strengthened to ensure that
inspectors consistently verify the number of prescription pads and that 72-hour
inventories of the main vault are consistently performed and that compliance be
monitored.

Concur

Target date for completion: December 15, 2013

Facility response:

To ensure that inspectors verify the number of prescription pads the Inventory Log has
been updated to include an inventory count column; the controlled substance inspector
will initial the column at each inspection.

To ensure that the 72-hour inventories of the main vault are consistently performed the
CSI will sign and date each 72 hour inventory report.

The Controlled Substance Coordinator will perform monthly audits to ensure logs have
been completed accurately. 100% compliance with be achieved for 4 consecutive
months.




VA OIG Office of Healthcare Inspections                                                        22
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


Recommendation 7. We recommended that processes be strengthened to ensure that
physical counts of all pharmacy drugs are completed during the 1st month of the quarter
and that compliance be monitored.

Concur

Target date for completion: December 15, 2013

Facility response:

To ensure that physical counts of all pharmacy drugs have been completed during the
1st month of the quarter the CSI checklist will be revised to include documentation of the
opening and replacement of the yellow seal on the emergency pharmacy supply cage
and date that the counts were completed within the first month of each quarter.

The Controlled Substance Coordinator (CSC) will monitor compliance, with the
expectation that 100% compliance for 4 consecutive months will be achieved. Report
will be presented monthly at the Organizational Performance Council (OPC).

Recommendation 8. We recommended that processes be strengthened to ensure that
inspectors verify hard copy prescriptions for 10 percent of the schedule II drugs
dispensed in the outpatient pharmacy and that compliance be monitored.

Concur

Target date for completion: January 15, 2014

Facility response:

To ensure that inspectors verify hard copy prescriptions for 10 percent of the schedule II
drugs dispensed in the outpatient pharmacy the CSI will initial each medication that
he/she verifies. The CSI will sign and date the bottom of each page of the report.

The CSC will provide training on current policy for verification of medications.

The Controlled Substance Coordinator will perform monthly audits to ensure logs have
been completed accurately. 100% compliance with be achieved for 4 consecutive
months.

Recommendation 9. We recommended that processes be strengthened to ensure that
drugs held for destruction are consistently compared with the Destruction File Holding
Report, that inspectors consistently verify drug destructions are completed at least
quarterly, and that inspectors ensure audit trails for destruction of 10 randomly selected
drugs are consistently verified and that compliance be monitored.

Concur

Target date for completion: January 15, 2014



VA OIG Office of Healthcare Inspections                                                        23
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


Facility response:

The CSI monthly checklist will be revised to include documentation of the last
3 destruction dates to verify they have been completed quarterly. In addition, the CSI
will sign and date the VA form 10-2321 monthly which is reconciled with the destruction
file holding report.

The Controlled Substance Coordinator will perform monthly audits to ensure logs have
been completed accurately. 100% compliance with be achieved for 4 consecutive
months.

Recommendation 10. We recommended that processes be strengthened to ensure
that inspector competencies are documented and that inspectors date and initial
inspection documents at the time of inspection and that compliance be monitored.

Concur

Target date for completion: November 15, 2013

Facility response:

The CSC will validate the CSI’s competencies through annual observations of each
inspector, and will include verification that each CSI is dating and initialing each
inspection document at the time of inspection.

Competencies will be documented and maintained by the CSC.                      Copies of each
competency will be also maintained in each inspectors personnel file.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff perform and document a patient skin inspection and risk scale at
discharge and that compliance be monitored.

Concur

Target date for completion: January 15, 2014

Facility response:

The inpatient nursing discharge template is being revised to include completion of
Braden skin assessment at time of discharge; if it had not been previously completed
the day of discharge. Following revision of the template, the discharge notes of patients
discharged with a pressure ulcer will be a reviewed as part of an established pressure
ulcer review, which will be reported at the Pressure Ulcer Management and Prevention
Committee and Nurse Executive Council.




VA OIG Office of Healthcare Inspections                                                        24
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


Recommendation 12. We recommended that processes be strengthened to ensure
that acute care staff accurately document location, stage, risk scale score, and the date
the pressure ulcer was acquired for all patients with pressure ulcers and that
compliance be monitored.

Concur

Target date for completion: January 15, 2014

Facility response:

Further training is being provided for the nursing staff on the inpatient unit regarding the
assessment and documentation of pressure ulcers. Completed training will be tracked
for 100% nursing staff completion and post training monitoring of pressure ulcer
documentation and accuracy will be conducted as part the established pressure ulcer
review, results will be reported at the Pressure Ulcer Management and Prevention
Committee and Nurse Executive Council.

Recommendation 13. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
that compliance be monitored.

Concur

Target date for completion: January 15, 2014

Facility response:

The inpatient nursing discharge note is being revised to include a section to document
the wound care follow up plan for those patients discharged with a pressure ulcer.
Following revision of the template, the discharge notes of patients discharged with a
pressure ulcer will be a reviewed as part of an established pressure ulcer review, which
will be reported at the Pressure Ulcer Management and Prevention Committee and
Nurse Executive Council.

Recommendation 14. We recommended that processes be strengthened to ensure
that documentation of construction site inspections includes time of inspections, type of
corrective action for identified deficiencies, and date and time of corrective actions.

Concur

Target date for completion: January 15, 2014

Facility response:

Beginning July 16, 2013, the Construction Safety Committee held its first post
inspection meeting and discussed the recommendations in the finding. The Committee
appointed the Engineering Administrative Assistant to accompany rounds to document


VA OIG Office of Healthcare Inspections                                                        25
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND


the construction round findings in a formalized tracker document. A deficiency tracker
tool has been developed to document Construction Safety rounds. The tool includes
time of inspections, type of corrective action for identified deficiencies and date and time
of corrective actions. The effectiveness of the tool was tested on July 16, 23, and
30, 2013. Final improvements to the form were made July 31, 2013 and will be utilized
for rounds starting August 6, 2013.

Results will be reported at the Construction Safety Committee to track all identified
actions to closure. The next monthly schedule Construction Safety Committee is
August 14, 2013.

The Chief of Engineering will conduct compliance monitoring for four consecutive
months to ensure that all elements of the tracking tool have been completed.

Recommendation 15. We recommended that processes be strengthened to ensure
that infection surveillance activities related to construction projects are conducted and
documented in ICC minutes.

Concur

Target date for completion: April 15, 2014

Facility response:

A deficiency tracker tool has been developed to document Construction Safety rounds.
The effectiveness of the tool was tested on July 16, 23, and 30, 2013. The tracker tool
identifies all deficiencies including infection control issues and provides recommended
solutions. Final improvements to the form were made July 31, 2013 and will be utilized
for rounds documentation starting August 6, 2013.

This form will be utilized to report Infection Control deficiencies as they relate to
construction projects at the quarterly Infection Control Meeting with identified solutions
outlined. All issues including identified solutions will be tracked to completion and will
be documented in the Infection Control Meeting Minutes.

Due to the fact that the Infection Control Committee meets quarterly (next is scheduled
for September 10, 2013), the Infection Control Coordinator will conduct monitoring to
ensure compliance for 9 months; or 3 consecutive quarterly meetings.




VA OIG Office of Healthcare Inspections                                                        26
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND
                                                                                       Appendix E


                 OIG Contact and Staff Acknowledgments
Contact 	               For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite 	                Noel Rees, MPA, Team Leader
Contributors 	          Sarah Lutter, RN, JD
                        Karen Moore, RNC, MSHA
                        Susan Tostenrude, MS
                        Randy Rupp
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Sami O’Neill, MA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS
                        Marc Lainhart, BS




VA OIG Office of Healthcare Inspections                                                        27
                                          CAP Review of the Fargo VA Health Care System, Fargo, ND
                                                                                       Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Acting Director, Fargo VA Health Care System (437/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Al Franken, Heidi Heitkamp, John Hoeven, Amy Klobuchar
U.S. House of Representatives: Kevin Cramer, Collin C. Peterson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                        28
                                                CAP Review of the Fargo VA Health Care System, Fargo, ND
                                                                                            Appendix G

                                                Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
    (MDS), January 4, 2013.
2
   References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
    Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
    Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
    September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
    January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
    Safety and Health Administration, the National Fire Protection Association, the American National Standards
    Institute, the Association for the Advancement of Medical Instrumentation, and the International Association of
    Healthcare Central Service Materiel Management, the Association for Professionals in Infection Control and
    Epidemiology.
3
   References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
    Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
   References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
    Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                         29
                                               CAP Review of the Fargo VA Health Care System, Fargo, ND



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        30
